Memorandum

To:            Secretary Kempthorne

From:          Earl E. Devaney
               Inspector General

Subject:       OIG Investigations of MMS Employees

        This memorandum conveys the final results of three separate Office of Inspector General
(OIG) investigations into allegations against more than a dozen current and former Minerals
Management Service (MMS) employees. In the case of one former employee, Jimmy Mayberry,
he has already pled guilty to a criminal charge. The cases against former employees, Greg Smith
and Lucy Querques Dennet, were referred to the Public Integrity Section of the Department of
Justice (DOJ). However, that office declined to prosecute. The remaining current employees
await your discretion in imposing corrective administrative action. Others have escaped
potential administrative action by departing from federal service, with the usual celebratory
send-offs that allegedly highlighted the impeccable service these individuals had given to the
Federal Government. Our reports belie this notion.

        Collectively, our recent work in MMS has taken well over two years, involved countless
OIG human resources and an expenditure of nearly $5.3 million of OIG funds. Two hundred
thirty-three witnesses and subjects were interviewed, many of them multiple times, and roughly
470,000 pages of documents and e-mails were obtained and reviewed as part of these
investigations.

        I know you have shared my frustration with the length of time these investigations have
taken, primarily due to the criminal nature of some of these allegations, protracted discussions
with DOJ and the ultimate refusal of one major oil company - Chevron - to cooperate with our
investigation. Since you have already taken assertive steps to replace key leadership and staff in
the affected components of MMS, I am confident that you will now act quickly to take the
appropriate administrative action to bring this disturbing chapter of MMS history to a close.

A Culture of Ethical Failure

       The single-most serious problem our investigations revealed is a pervasive culture of
exclusivity, exempt from the rules that govern all other employees of the Federal Government.
        In the matter involving Ms. Dennet, Mr. Mayberry and Milton Dial, the results of this
investigation paint a disturbing picture of three Senior Executives who were good friends, and
who remained calculatedly ignorant of the rules governing post-employment restrictions,
conflicts of interest and Federal Acquisition Regulations to ensure that two lucrative MMS
contracts would be awarded to the company created by Mr. Mayberry - Federal Business
Solutions - and later joined by Mr. Dial. Ms. Dennet manipulated the contracting process from
the start. She worked directly with the contracting officer, personally participated on the
evaluation team for both contracts, asked for an increase to the first contract amount, and had
Mayberry prepare the justification for the contract increase. Ms. Dennet also appears to have
shared with Mr. Mayberry the Key Qualification criteria upon which bidders would be judged,
two weeks before bid proposals on the first contract were due.

        In the other two cases, the results of our investigation reveal a program tasked with
implementing a "business model" program. As such, Royalty in Kind (RIK) marketers donned a
private sector approach to essentially everything they did. This included effectively opting
themselves out of the Ethics in Government Act, both in practice, and, at one point, even
explored doing so by policy or regulation.

       Not only did those in RIK consider themselves special, they were treated as special by
their management. For reasons that are not at all clear, the reporting hierarchy of RIK bypassed
the one supervisor whose integrity remained intact throughout, Debra Gibbs-Tschudy, the
Deputy Associate Director in Denver, where RIK is located. Rather, R1K was reporting directly
to Associate Director Dennet, who was located some 1500 miles away in Washington, DC, and
to whom the unbridled, unethical conduct of RIK employees was apparently invisible (although
the Associate Director had been made aware of the plan by RIK to explore more formal
exemption from the ethics rules.)

        More specifically, we discovered that between 2002 and 2006, nearly 1/3 of the entire
RIK staff socialized with, and received a wide array of gifts and gratuities from, oil and gas
companies with whom RIK was conducting official business. While the dollar amount of gifts
and gratuities was not enormous, these employees accepted gifts with prodigious frequency. In
particular, two RIK marketers received combined gifts and gratuities on at least 135 occasions
from four major oil and gas companies with whom they were doing business - a textbook
example of improperly receiving gifts from prohibited sources. When confronted by our
investigators, none of the employees involved displayed remorse.

        We also discovered a culture of substance abuse and promiscuity in the RIK program -
both within the program, including a supervisor, Greg Smith, who engaged in illegal drug use
and had sexual relations with subordinates, and in consort with industry. Internally, several
staff admitted to illegal drug use as well as illicit sexual encounters. Alcohol abuse appears to
have been a problem when RIK staff socialized with industry. For example, two RIK staff
accepted lodging from industry after industry events because they were too intoxicated to drive
home or to their hotel. These same RIK marketers also engaged in brief sexual relationships
with industry contacts. Sexual relationships with prohibited sources cannot, by definition, be
arms-length.



                                                 2
         Finally, we discovered that two of the RIK employees who accepted gifts also held
inappropriate outside employment and failed to properly report the income they received from
this work on their financial disclosure forms. Smith, in particular, deliberately secreted the true
nature of his outside employment - he pitched oil and gas companies that did business with RIK
to hire the outside consulting firm - to prevent revealing what would otherwise, at a minimum,
be a clear conflict of interest.

Conclusion

       As you know, I have gone on record to say that I believe that 99.9 percent of DOI
employees are hard-working, ethical and well-intentioned. Unfortunately, from the cases
highlighted here, the conduct of a few has cast a shadow on an entire bureau.

       In summary, our investigation revealed a relatively small group of individuals wholly
lacking in acceptance of or adherence to government ethical standards; management that through
passive neglect, at best, or purposeful ignorance, at worst, was blind to easily discernible
misconduct; and a program that had aggressive goals and admirable ideals, but was launched
without the necessary internal controls in place to ensure conformity with one of its most
important principles: "Maintain the highest ethical and professional standards." This must be
corrected.

Recommendations

       In conclusion, we offer the following Recommendations.

   1. Take appropriate administrative corrective action.

       Some very serious misconduct is identified in these reports. While the DIG generally
       does not take a position concerning what administrative corrective action might be
       appropriate in any given matter, in this instance there may be significant enough
       misconduct to warrant removal for some individuals. Given the unwillingness of some to
       acknowledge their conduct as improper, the subjects of our reports should be carefully
       considered for a life-time ban from working in the RIK program.

   2. Develop an enhanced ethics program designed specifically for the RIK program.

       Given the RIK culture, an enhanced ethics program must be designed for RIK, including,
       but not limited to, 1) an explicit prohibition against acceptance of any gifts or gratuities
       from industry, regardless of value; 2) a robust training program to include written
       certification by employees that they know and understand the ethics requirements by
       which they are bound; and 3) an augmented MMS Ethics Office.

   3. Develop a clear, strict Code of Conduct for the RIK program.

       A fundamental Code of Conduct with clear obligations, prohibitions, and consequences
       appears to be necessary to repair the culture of misconduct in the RIK program. This

                                                 3
      code should include a clear prohibition against outside employment with the oil and gas
      industry or consultants to that industry. Given the considerable financial responsibilities
      involved, MMS should also consider implementing a Random Drug Testing program
      specifically for RIK.

   4. Consider changing the reporting structure of RIK.

      The management reporting structure of the RIK program must be seriously reconsidered.
      Given the challenges that will be faced in rebuilding this program, it seems imperative
      that RIK have management oversight in immediate proximity, not some 1,500 miles
      away in Washington, DC.

      If you have any questions, please do not hesitate to contact me at (202) 208-5745.

Attachments




                                               4
    Investigative Report
                           Federal Business Solutions Contracts


                                     Report Date: September 4, 2008
                                 Date Posted to Web: September 10, 2008




This report contains information that has been redacted pursuant to 5 U.S.C. §§ 552(b)(2), (b)(6), and (b)(7)(C) of
the Freedom of Information Act. Supporting documentation for this report may be obtained by sending a written
                               request to the OIG Freedom of Information Office.
                                 RESULTS IN BRIEF
In June 2005, a confidential informant (CI) telephoned the U.S. Department of the Interior (DOI),
Office of Inspector General (OIG), to report that the Minerals Management Service (MMS), Minerals
Revenue Management (MRM), had hired two retired Senior Executive Service (SES) MMS
employees for high, six-figure salaries. After an initial referral to MMS, we opened an official
investigation of this matter in March of 2007 when additional information came to our attention
during a separate MMS investigation.

Our investigation determined that MRM Associate Director Lucy Querques Denett had acted together
with her Special Assistant, Jimmy Mayberry, to create a lucrative contract for Mayberry upon his
MMS retirement. Not only did Denett personally orchestrate the creation of the contract with
Mayberry, but she also served on the Technical Proposal Evaluation Committee (TPEC) that rated
Mayberry’s company and subsequently sought a modification to the contract that increased its
funding.

Moreover, we determined that Mayberry actually drafted the Statement of Work for the contract while
he was still employed by MMS and that former MMS Deputy Associate Director Milton Dial
participated personally and substantially in awarding the contract to Mayberry. Dial served on the
TPEC and also acted as MMS’ contracting officer’s technical representative (COTR). Shortly after
Dial retired from MMS, he went to work for Mayberry on this same contract.

This case is being referred to the Department of Justice (DOJ) for whatever action it deems
appropriate.

                                    BACKGROUND
In December 2002, Lucy Querques Denett was the MRM Associate Director for MMS, Jimmy
Mayberry was her Special Assistant, and Milton Dial was the Assistant Program Director for
MMS’ Royalty in Kind (RIK) Program. All three SES employees were close colleagues and
friends who had worked together for MMS since 1982.

On January 3, 2003, Mayberry retired from MMS and started a consulting company, which he
called Federal Business Solutions (FBS). On February 21, 2003, MMS announced a contract
solicitation for technical and managerial advisory services. On June 2, 2003, the contract was
awarded to Mayberry’s company, FBS. From the contract’s inception until the date of his
retirement on September 3, 2004, Dial served as the COTR for the contract awarded to FBS. On
February 22, 2005, less than 6 months after he retired from MMS, Dial began working for
Mayberry under the FBS contract.

As the original FBS contract approached expiration, MMS issued a second solicitation for a
technical and managerial advisory services contract on October 4, 2005. On January 17, 2006,
MMS awarded the new contract to FBS. When we initiated this investigation, Mayberry and Dial
were performing services for MMS under the second FBS contract.



                                                1
                         DETAILS OF INVESTIGATION
In June 2005, a CI reported to the OIG that two former MMS SES employees were rehired by
MMS’ MRM division for high, six-figure salaries. On December 7, 2005, the OIG referred the
matter to MMS for internal review, which MMS responded to in a March 8, 2006 memorandum
to the OIG. In the memorandum, Denett was quoted as acknowledging that two former MMS
SES employees were working under a contract with MMS; however, she denied any impropriety
related to the formation and existence of the contract. According to Denett, “the acquisition was
accomplished through a formal open competitive process conducted by MMS’s procurement
officials,” and “FBS was awarded the contract based on the merits of its technical and cost
proposals.”

The OIG subsequently opened an investigation in March 2007 after developing additional
information in a related investigation. Our investigation of this matter lasted approximately 6
months and included 20 personal interviews, along with the examination of over 25,000
documents and e-mails.

Our investigative findings are organized into the following eight sections:

   •   Background of Denett, Mayberry, and Dial
   •   Creation of Contract
   •   Award of First FBS Contract
   •   Dial’s Employment with FBS
   •   Award of Second FBS Contract
   •   Potential Ethics Violations
   •   Termination of Second FBS Contract
   •   Potential Losses of Competing Companies

                        Background of Denett, Mayberry and Dial

Lucy Querques Denett stated that she began working for MMS when the agency was formed in
1982, and she became the associate director of MRM in January 1997 – a position she held until
January 31, 2008, when she retired. According to Denett, she has known Mayberry and Dial for
many years as they began working for her in 1997 when she became the associate director.
Denett told investigators that she considered them both to be friends. She said Mayberry served
as her special assistant from 1997 until he retired in January 2003. Dial was serving as Denett’s
deputy associate director when he retired in September 2004.

Jimmy Mayberry stated that he began working for MMS when the agency was formed in 1982.
He became an SES employee for MMS in 1985 and served twice as an associate director during
the 1980s. Mayberry said he relocated from Denver to Dallas in 1993, where he served as the
director of MMS’ Compliance Program through 1996. In 1996, Mayberry said he became the
special assistant to the associate director for the MRM Re-engineering Program. In this capacity,
Mayberry said he led the effort to update the core business processes of MRM, such as its
policies and procedures and its informational technology systems.

                                                2
In 2000, Mayberry’s SES special assistant position was abolished with the completion of the Re-
engineering Program. According to Mayberry, at this point he elected to take a down-grade to a
GS-15 to become the special assistant to the associate director “at large” in order to remain in
Dallas. In this position, Mayberry said he played a supporting and advisory role to Associate
Director Denett by assisting with briefing papers, speeches, and the preparation and planning of
meetings and strategy sessions. Mayberry said he served as Denett’s special assistant until he
retired on January 3, 2003.

Milton Dial also began working for MMS at the agency’s inception in 1982. He became an SES
employee in January 2001 when he became the assistant program director for the RIK Program.
In October 2003, Dial became the deputy associate director for MRM and reported directly to
Denett. He remained in that position until his retirement in September 2004.

                                     Creation of Contract

According to Denett, Mayberry informed her of his intention to retire from MMS approximately
2 to 3 months before he retired in January 2003. Denett stated that after she was unsuccessful in
attempting to dissuade Mayberry from retiring, she asked if he would consider becoming a
retired annuitant. According to Denett, Mayberry told her that he was “not interested” in doing so.

Denett stated that once she saw that Mayberry was intent on retiring, she and Mayberry
discussed the option that he could continue working for MMS under an “8a sole-source
contract.” Denett confirmed that she inquired with MMS’ Procurement Division about pursuing
an 8a sole-source contract specifically to retain Mayberry.

Denett told investigators that she initially asked Robert Brown, MMS Associate Director for
Administration and Budget, how she could bring back a retired federal employee (Mayberry),
and Brown directed her to speak directly with the procurement division. Based upon Brown’s
advice, Denett said she contacted the MMS Procurement Division and obtained information
about 8a sole-source contracting. Denett stated that after reviewing the information, she and
Mayberry decided to not pursue such a contract, specifically because she did not feel
comfortable with “paying overhead” to an 8a sole-source contractor.

Denett’s statements regarding her inquiry into an 8a sole-source contract for the benefit of
Mayberry is supported by a series of e-mails beginning November 12, 2002, through November
21, 2002. These e-mails between Denett, Mayberry, and MMS procurement official David
Sutfin reveal that Mayberry and Denett were both actively involved in this effort.

Before investigators showed Mayberry the subject e-mails, investigators asked if prior to his
retirement he had ever spoken with Denett about the possibility of working for MMS as a
contractor after he retired. Mayberry responded, “No. No. No. Never. Never.” Even after
reviewing the e-mails, Mayberry denied that he ever discussed returning to MMS in any
capacity, as a retired annuitant or as a contractor. Mayberry opined that while this may have
been Denett’s goal, she never discussed such intentions with him. Investigators brought to
Mayberry’s attention that he had sent the initial inquiry about 8a sole-source contracting to

                                                 3
Denett, which she then forwarded to the procurement division for answers about “using a
contractor to bring in a retired Federal employee.” When investigators asked Mayberry if he
could explain this fact, he said, “No. I really can’t.”

Mayberry then stated that there was no doubt in his mind that Denett held him in high regard and
that, if possible, she would want him to provide services to MMS in the future. He supported
this belief by saying, “I do remember her asking me at one point, if we were able to create
something in the future, would you even be interested, would you even put your name in, and I
said I would seriously consider that.” Mayberry continued, saying, “Was Lucy [Denett]
interested in finding a way, or having a way of bringing me back to continue to help the program
at some point? I think she did – I clearly think she did.” He further explained that Denett told
him before he retired that she was interested in having him work for her “sometime down the
road.” He ultimately admitted that he and Denett had many discussions about the various
options that would allow him to return and perform work for MMS. Mayberry did not remember
specifically if they discussed 8a sole-source contracting or competitive contracting but said,
“[N]othing was ruled out.” He explained that he had planned on retiring for “many, many
months” before he actually retired, and Denett had tried talking him out of retirement.

According to Denett, after she and Mayberry decided not to pursue an 8a sole-source contract,
she decided that she needed to create a competitive contract for consulting services in order to
replace Mayberry. Denett said she discussed her plan to create such a contract with Mayberry.
Whereas Mayberry stated that Denett asked if he would compete for such a contract, Denett did
not remember specifically asking Mayberry if he would submit a bid but said she certainly
wanted him to compete. Denett explained that after discussing her plan with Mayberry, he
informed her that he was planning on creating a consulting services company.

Mayberry told investigators that he started his consulting company, FBS, in early 2003 after he
retired from MMS. He explained that he had been thinking of starting FBS while still working
for MMS because he “planned to hit the ground running” after retirement. Mayberry said, “I was
already forming FBS [before retirement]; I had that essentially planned out – the name and
everything else – as soon as I retired, I went and registered the company to get the name legally
set up.” He further explained, “[I]t was obvious MMS was going to have a continuing need in
strategic planning because they were always trying to improve. So I am not surprised they came
out with a competition.” Mayberry also stated that he “saw [the solicitation] on GovWorks” and
that he was “glad to have the opportunity to compete for it.” When asked if he knew that a
contract would be coming out prior to the time he saw the solicitation, Mayberry said, “No,
absolutely not.”

In contrast to Denett’s statement that she and Mayberry had discussed her plan to issue a
competitive contract for consulting services, Mayberry told investigators that he had never
spoken with Denett about the solicitation before or after it was issued. He explained that any
such contact or discussion would have been improper and he did not want to place Denett or
anyone else “at risk of an impropriety about a contract” because “that wouldn’t make any sense.”

However, according to Denett, once her attempts to convince Mayberry to come back as a retired
annuitant or an 8a sole-source contractor had failed, she decided to create a competitive contract

                                                4
for consulting services and asked Mayberry to draft the contract’s Statement of Work.
Investigators asked Denett if, given her prior efforts to retain Mayberry’s services, she thought
asking Mayberry to draft a Statement of Work for a future competitive contract for which he
intended to submit a proposal created a potential conflict of interest. Denett responded by
saying, “As you and I are talking now, yeah, I can see what you are saying, but again, it’s still
going to be competitive – [Mayberry] wasn’t promised [the contract].”

The fact that Mayberry drafted the Statement of Work as an MMS employee for the very
contract that he subsequently bid on after he retired is supported by the following e-mail string:

   •   E-mail from Denett to MMS Contracting Officer Jane Carlson, dated December 2, 2002,
       stating, “Any luck in finding examples of SOWs [Statement of Work] that may be helpful
       to me in drafting one that I’ll need to obtain the consulting support we discussed?”

   •   E-mail from MMS contracting specialist to Denett, dated December 6, 2002, stating,
       “Jane Carlson asked me to send you a copy of the statement of work (SOW) we used for
       the MMS Performance Report contract. I have attached the SOW. If you have questions
       please let us know.”

   •   E-mail from Denett to MMS contracting specialist (responding to the contracting
       specialist’s December 6, 2002 e-mail), dated December 7, 2002, at 9:22 a.m., stating,
       “[Contracting specialist], thank you, I’ll review and call next week with my comments.”

   •   E-mail from Denett to Mayberry, dated December 7, 2002, at 9:25 a.m., stating, “Hi
       Jimmy, I got some information on our the [sic] other activity. I’m not certain its [sic] on
       point, but it’s a start. I’ll discuss with you on Monday. I call you on my cell phone. I’ll
       still be out.”

   •   E-mail from Mayberry to Denett’s home e-mail address, dated December 12, 2002, at
       7:12 p.m., containing a draft Statement of Work with the following message: “This was
       put together rather quickly. I will explain the approach tomorrow.”

After reviewing the subject e-mails, Mayberry said, “I do remember that. She asked me to do
that – that’s right – she was back then contemplating some kind of contract at some point – but
whether or not that was ever going to happen or whether or not I was ever going to be a part of
that is a completely different issue.” He added, “It occurred to me that maybe it would be an
opportunity that would materialize – but how would I know that?” Mayberry then explained that
when the solicitation was announced after he retired, he “was pleased to have the opportunity to
compete” for the contract. Mayberry acknowledged that Denett had told him before he retired
that she “hoped he would be available” to perform consulting work in the future; however,
Mayberry noted that Denett did not make any commitments to him regarding such work.

Mayberry said, “I did not draft a Statement of Work for a contract for myself.” He explained
that he drafted the Statement of Work simply because Denett asked him to do so, and he had no
idea if, or when, such a contract would ever be announced by MMS.


                                                 5
Regarding Mayberry’s statement that he never considered submitting a proposal for a contract
containing the Statement of Work he had drafted, investigators asked Denett if Mayberry knew
that she was trying to get the contract out soon after his retirement. Denett responded, “Sure,
yeah.” She explained, “I did say I wanted somebody soon after he left, because we needed the
support.” Agent’s Note: Regarding Mayberry’s knowledge that Denett intended to issue a
solicitation for the contract soon after Mayberry retired, investigators identified an e-mail string
establishing that a meeting to discuss the future contract between Contracting Officer Carlson
and Denett had been scheduled for December 13, 2002. This meeting was to take place the day
after Mayberry sent Denett the Statement of Work to her personal e-mail address, where he
indicated it was drafted “pretty quickly.”

Mayberry acknowledged that the Statement of Work he drafted described duties and
responsibilities that were essentially identical to the duties he had been performing as Denett’s
special assistant during his final years of employment with MMS. Investigators asked Mayberry
if, while he was drafting the Statement of Work, it occurred to him that he would be bidding on
such a contract. Initially, Mayberry said, “I never said that after I drafted the Statement of Work
that I never thought about the fact that something might come out and I might have an interest in
it.” After again being asked if it occurred to him while he was drafting the Statement of Work
that he might submit a proposal to a solicitation that contained the same Statement of Work,
Mayberry responded, “Maybe it did, maybe it didn’t – I don’t know – all I was doing was
drafting what I was asked to put together. That’s all I was doing. Even if a contract was coming,
I knew I was going to have to compete for a contract, at least that’s what I presumed.”

Based upon this response, investigators asked Mayberry whether he thought drafting the
Statement of Work was proper, if he was presuming he would need to compete for the upcoming
contract. Mayberry replied, “Statement of Work, Statement of Work, I don’t think…What does
it matter who drafts the Statement of Work?” Agent’s Note: The Federal Acquisition
Regulations prohibit a contractor from submitting a proposal to a solicitation based on a
Statement of Work that was prepared by the contractor.

On December 17, 2002, Denett sent an e-mail to Carlson reminding her to send her the
evaluation criteria she needed to include in the Statement of Work she was developing.

One week after Mayberry supplied the Statement of Work to Denett, on December 20, 2002,
Denett sent an e-mail to Mayberry describing Dial’s dismay about Mayberry’s upcoming
retirement. The e-mail stated the following:

       Hi Jimmy,

       I just got off the phone with Milt. I was home today getting ready for my trip to
       NJ. Anyway, at the end of the day, Johnnie asked for a paper on RIK, due
       Monday, Cathy called MIlt [sic] who was also trying to shut down and leave for
       Las Vegas. He got upset that this request came in so late and he would have to
       work late into the night to prepare it and folks were gone, etc. He told Cathy he
       was ‘done’. Cathy called me, I called Milt and told him not to do anything I



                                                 6
       would call Johnnie. Anyway to make a long story short, I got the due date
       delayed, calmed Milt down. I think he backed away from resigning.

       He then told me you told him you were retiring and that that depressed him, he
       would be ‘home alone’. I said to him, how do you think I’d feel, if both of you
       decided to go at the same time - - talk about being home alone. We discussed
       opportunities. We will get together and talk when we both get back on January 2,
       [Dial] will help me.

After reviewing the above e-mail, Mayberry said, “It looks to me like, if you piece all the pieces
together, it looks like [Denett] was working toward what ended up being a competitive
announcement and somehow Milt was engaged.” Investigators pointed out that if this were the
case, then with respect to Denett’s statement that “[Dial] will help me,” Mayberry must have
known about the upcoming solicitation in order for Denett’s statement to have any context. In
response to this logic, Mayberry responded, “I don’t know.”

After Denett reviewed the e-mail, investigators asked her why she stated to Mayberry, “[Dial]
will help me.” Denett acknowledged that she was informing Mayberry that Dial would be
helping her put the competitive solicitation together that she had been discussing with Mayberry.

Regarding Denett’s statement in the e-mail to Mayberry that she and Dial “discussed
opportunities,” Denett confirmed that she “probably” discussed with Dial the fact that she was
creating a competitive contract for consulting services and that she was anticipating Mayberry
would compete for the contract. Investigators then asked Denett if she ever talked to Dial about
the possibility of Dial working for Mayberry after he retired, if Mayberry won the contract.
Denett responded, “I don’t know, I may have.”

During his interview, Dial stated that he could not recall this discussion with Denett or what
these opportunities could have been. “It was a long time ago,” Dial said.

On January 3, 2003, Mayberry retired from MMS.

                                Award of First FBS Contract

On January 8, 2003, Denett sent an e-mail to Dial with the Statement of Work Mayberry drafted.
Attached to the Statement of Work was the following note: “Per discussion.”

On January 24, 2003, Denett sent an e-mail to Carlson with the Statement of Work attached. In
the e-mail, Denett asked Carlson the following questions: “How soon can you issue the RFP
[Request for Proposal – solicitation for the contract]? Please call me when it is issued. How
long will the solicitation be open?”

In response, on January 27, 2003, Carlson e-mailed Denett a sample of evaluation criteria needed
to compliment the Statement of Work. Upon receiving the sample evaluation criteria from
Carlson, Denett forwarded the criteria to Dial the next day, January 28, 2003, with a one-word
message, “Help.” Later that same day, Dial sent an e-mail to Denett with draft evaluation

                                                 7
criteria and stated, “Attached is a write-up of the Key Qualifications that compliments the draft
statement of work that you forwarded earlier to Jane Carlson.” On January 29, 2003, Denett
forwarded the Key Qualifications drafted by Dial to Carlson for utilization in the upcoming
solicitation.

Investigators showed Denett the above-noted e-mails where she asked Dial to draft the Key
Qualifications (evaluation criteria), based upon the Statement of Work drafted by Mayberry,
which would be used to evaluate the competitors for the solicitation. Investigators asked Denett
if she thought asking Dial, a friend of Mayberry’s, to draft the Key Qualifications was proper
when Dial knew Mayberry would be competing for the contract. Denett responded, “Asking me
now, my answer would be no. What was my answer then? – obviously I did it and it doesn’t
look proper.”

Investigators then informed Denett about an inquiry by a potential competitor to MMS’
procurement division for the second FBS contract solicitation in 2005, which contained
essentially the same evaluation criteria that Dial drafted for the initial 2003 solicitation.
Investigators informed her that the person making the inquiry suggested that two of the
Key Qualifications were clearly “wired” to a former MMS-MRM employee.
Investigators showed the following two Key Qualifications identified to Denett:

       • Proposed staff demonstrate the following skills and direct experience,
       that are considered critical to timely and successful accomplishment of
       assigned projects:

       1.      Expert knowledge and understanding of the statutory, regulatory and
               policy requirements that guide the MMS in the management of
               Federal and Indian mineral royalties whether collected in value or
               kind.

       3.      Specific knowledge and experience in financial accounting,
               compliance operations, asset management and Indian trust
               management associated with oil and gas and solid mineral royalty
               revenues.

Investigators told Denett that the OIG reviewed the Technical Proposal Evaluation Committee’s
(TPEC) evaluation of the competitors in the initial solicitation and had determined that the
proposals submitted by all 15 offerors, excluding FBS, were deemed by the TPEC to contain the
very same weakness in relation to the Key Qualifications noted above. Investigators advised
Denett that the wording used in the TPEC synopsis evaluations for all of the remaining 15
offerors was almost identical with respect to the criteria. Specifically, all of the losing 15
offerors were deemed to have a weakness that the TPEC described in the following manner:

       The offeror demonstrates very limited experience with or exposure to statutory,
       regulatory or policy requirements that guide the business activities of the MRM in
       the collection, accounting for and verification of Federal and Indian mineral
       royalties. Furthermore, the offeror demonstrates limited knowledge and

                                                   8
       experience in financial accounting, compliance operations, asset management and
       Indian trust management associated with oil and gas and solid mineral royalty
       revenues.

Agent’s Note: FBS, on the other hand, was rated by TPEC as having no weaknesses in these
criteria and was the only company that ultimately received an overall “Excellent” rating by the
TPEC.

Investigators then asked Denett if she believed this fact contributed to a perception that Dial may
have created certain Key Qualifications that were written to help his friend win a contract.
Denett responded by stating, “I agree the perception is bad.” Investigators asked Denett if she
believed this was a fair competition. She replied, “I believe I tried to make it fair – it doesn’t
look that way, but I did try.”

Investigators also informed Mayberry about the inquiry made by a competitor in relation to the
second solicitation that FBS won in 2005. Specifically, investigators informed Mayberry that the
competitor claimed that two of the five Key Qualifications were written toward a company that
employed a former MMS-MRM employee. Investigators also showed Mayberry the two Key
Qualifications at issue and asked for his comment. Mayberry replied, “I don’t know.”
Investigators asked Mayberry about his company’s rating by the TPEC as “Excellent” in these
two Key Qualifications, where the other 15 competitors had weaknesses. Mayberry provided no
response to this observation.

Investigators then asked Mayberry if he thought any other company could be rated higher than
his with respect to the Key Qualifications, considering the experience required in the
qualifications would be derived from the exact duties he had been performing for MMS for the
past 22 years. Mayberry stated that many people had the experience described in the Key
Qualifications; however, he acknowledged that his years with MMS provided him with a high
degree of experience in these areas.

Investigators provided Dial with an e-mail he sent to Denett which included the Key
Qualifications used by the TPEC to select a qualified company for the contract (See Attachment
10). When asked by investigators if he had prepared the document, Dial replied, “I believe so.”
Dial stated that the draft Statement of Work he referred to in his e-mail was for the FBS contract,
although he could not state for certain that it was the version he had been shown earlier.

On February 5, 2003, Denett e-mailed a copy of the Key Qualifications to her personal e-mail
address. Investigators asked Denett if she sent the Key Qualifications to her personal e-mail
address in order to forward them to Mayberry before the solicitation was issued to the public.
Denett responded by saying, “I may have, I don’t know.” She then acknowledged that, if she
had done so, it would not have been proper.

On February 21, 2003, less than 2 months after Mayberry retired, the solicitation that ultimately
became the initial FBS contract was announced as a combined synopsis/solicitation for technical
and advisory management services. In March 2003, MMS set up a TPEC to evaluate any and all



                                                 9
proposals received as a result of the solicitation. MMS personnel on this TPEC included Denett,
Dial, and Denett’s Chief of Staff, Cathy Hamilton.

OIG investigators asked Denett if she believed it would give the appearance of favoritism if
somebody on the TPEC had an association or relationship with one of the people competing for
the contract. Denett responded, “[I]t does.” Investigators then asked Denett if she remembered
who served on the TPEC for the first MMS-FBS contract. She responded that she, Dial, and
Hamilton served on the TPEC. After further questioning, Denett readily admitted to
investigators that participating in the TPEC that rated Mayberry’s competitors was a “very poor”
decision on her part.

Investigators then asked Denett if she thought Dial, given his interests in the matter, should have
been a member of the TPEC. She responded that “in hindsight,” his presence on the TPEC did
give a “bad perception.” Investigators asked Denett, beyond perceptions whether she believed
she and Dial were objective TPEC members. Denett responded that she would like to think they
were fair and objective; however, she added, “… I think people do get influenced by who they –
what they know.”

Regarding her decisions related to this procurement process, Denett stated that she had been
preoccupied with a very stressful personal issue at the time.

In her interview, Cathy Hamilton stated that she had known Mayberry since 1989. She also said
Mayberry was her supervisor for 1 year in 1989 when she first started working for MMS.
Regarding her service on the TPEC in 2003, Hamilton said she had no knowledge that Mayberry
planned on competing for the contract until she began reviewing the competitors’ proposals to
the solicitation. When she realized Mayberry was one of the bidders, she claimed that this fact
did not raise any questions in her mind about ethical or procurement standards. She claimed that
she had no knowledge of discussions between Denett and Mayberry prior to the solicitation and
that she was unaware that Mayberry had actually drafted the Statement of Work.

As a member of the TPEC, Hamilton claimed that she simply performed her duties by
objectively evaluating each competitor and ranking the proposals based upon their individual
merit. Hamilton said she was not pressured or influenced by Denett during this process.

Agent’s Note: Hamilton sent two personal e-mails to both Dial and Mayberry on July 3, 2006,
the month she retired from MMS. The e-mail she sent to Mayberry concluded by stating,
“Thanks so much for everything over the years. Your friend, Cathy.” The e-mail she sent to
Dial 1 minute later concluded by stating, “Thanks so much for all you have done for me. Your
friend, Cathy.” Also, an e-mail sent to Dial by current Deputy Associate Director for MRM,
Deborah Gibbs Tschudy, on May 22, 2006, stated the following: “The reason I am writing is that
we are planning Cathy Hamilton’s retirement reception. Cathy specifically asked if you [Dial]
would be willing to say a few words.”

Sixteen companies, including FBS, submitted “original proposals,” and four companies,
including FBS, were asked to submit “Best and Final Offers.” Ultimately, the TPEC rated FBS
“Excellent” for all three criteria used by the TPEC for both its original proposal and its “Best and

                                                10
Final Offer”; no other company received an “Excellent” rating for any of the three criteria, for
either proposal.

When interviewed, Mayberry explained that a TPEC was a committee formed to evaluate
proposals submitted by companies in relation to a competitive contract. He further stated that it
would be inappropriate for a member of the TPEC to communicate with any company that had a
proposal before the TPEC for evaluation in relation to a competitive contract. He said he
believed “the standard for serving as a TPEC member would proscribe” that activity as a “certain
conflict of interest.” Mayberry explained that “if you [as a TPEC member] had a particular
knowledge of, or association with, or had anything that would put you in a position of
disadvantaging other competitors, for example, or showing favoritism to a competitor, [it] would
be a major problem.”

Mayberry denied that he knew who served on the TPEC for the original solicitation that FBS
won. Investigators informed him that Denett and Dial both served on the three-member TPEC
team and asked Mayberry if he believed there was an appearance or actual conflict of interest in
having two of his personal friends serving on this TPEC. Mayberry responded, “Not if they
follow the procurement rules” and select the best company at the best price.

On June 2, 2003, Contract No. 01-03-CT-71875 was awarded to FBS for 1 base year in the
amount of $150,000 – “Time and Materials, base plus two option years.” The total contract
amount for all 3 years was $449,151, not including travel costs. Dial was appointed as the
COTR for the contract.

When investigators asked Mayberry if Dial served as the COTR for the original FBS contract
awarded in June of 2003, Mayberry initially stated, “I don’t know; I don’t think so.” After being
shown the contract award cover sheet, signed by Mayberry, which listed Dial as the COTR,
Mayberry said, “You know what, yes; I do remember that – he was the COTR.”

                               Dial’s Employment with FBS

On January 21, 2004, approximately 8 months before his retirement, Dial sent an e-mail to
Mayberry that contained “the latest guidance on Post Employment Restrictions for Senior
Executives developed by the Department’s Ethics Office.” The e-mail contained a discussion of
recent legislative changes to 18 USC §207(c) and contained the following statement, “How’s this
for confusion.” The guidance read, in part:

       How does the ‘senior’ employee post-employment restriction work? This
       provision is known as a ‘cooling-off period’ as it affects the ability of the former
       ‘senior’ employee to represent anyone other than the United States back to the
       agency where employee served in their last year.

Agent’s Note: For the year 2004, the guidance defined a “senior” employee as an employee who
earned more than $135,805 a year. It should be noted that, at the time of his retirement from the
government, Dial was an SES employee earning $145,600 a year.


                                                11
After reviewing the January 21, 2004 e-mail, Dial said, “Oh, I remember this.” He continued,
“For the life of me, I did not understand what this was saying.” When questioned about the steps
he took to obtain clarification on this issue, Dial said he heard that clarification was going to be
issued because others were similarly confused. Dial did not recall if this clarification was ever
issued. He also could not recall any discussions he had with Mayberry concerning these
restrictions. Dial said he never considered the fact that working for FBS after he left MMS
would potentially create a legal issue for him. He also said he never discussed these post-
employment restrictions with anyone else.

According to Dial, he understood that the waiting period rules applied only if a person was going
to work for industry or a company “on the other side of the table” – in a business that was
regulated by the agency for which the person had worked. He stated that it was also his
understanding that re-employment with the government “wasn’t a problem.” Dial said this
understanding was based on ethics lectures he attended.

Investigators advised Dial that he had not been “re-employed” by the government; rather he had
been hired as a contractor. In response, Dial said, “I guess I didn’t see it that way.” Dial
explained that because FBS was doing work for the government, and the government was FBS’
only client, he did not consider his employment to be problematic. “I just found this very
confusing,” Dial said, and he stated that he expected clarification to be forthcoming, although he
did not know if it ever did come, but he assumed it did. When asked why he forwarded these
guidelines to Mayberry, Dial said he wanted to see if Mayberry could understand them. When
asked if Mayberry clarified the rules for him, Dial said, “I don’t remember. I don’t think so.”
Dial again said, “I couldn’t figure out what the words were saying, and I was hearing there
would be some follow-up clarification on that.”

On September 3, 2004, Dial retired from MMS. Dial was still the COTR for the initial FBS
contract at the time of his retirement. Subsequent to Dial’s retirement, Denett assigned herself as
the new COTR for the FBS contract.

On November 23, 2004, MMS Chief Procurement Officer Mark Eckl sent an e-mail to Denett
responding to a previous inquiry she had made with him. After apologizing for his delay in
responding to her inquiry, Eckl stated, “I’ve looked at the Federal Business Solution contract file
and my initial recommendation would be to pursue a new contract.” Eckl explained his reason
for making this recommendation in the following manner: “If we add additional work it will
more than likely cause a large increase in the [funding] ceiling. This could be problematic from
a contract scope standpoint.” Denett responded by thanking Eckl for his response and then stated
that she wanted to “put some more thought” into what she wanted to do and would contact him
again later.

According to Dial, around January 2005, after his retirement, Mayberry asked him if he had an
interest in working for FBS. Dial said he did not have any specific plans for his future at that
time but was interested in doing some part-time work. Dial claimed he never discussed his plans
to work for FBS with Denett before he retired from MMS.




                                                12
On January 6, 2005, Denett re-contacted Eckl about the FBS contract via e-mail and asked, “Isn’t
there any way we can modify the current contract and add to the [funding] ceiling cap?” Eckl
responded to Denett via e-mail on January 7, 2005, by stating the following:

       Lucy, it is possible to make some adjustments to the ceiling. Generally speaking
       time and material contract ceilings can be raised. However, we would need to
       justify in the contract file any increase. There is no clear guidance on how much a
       ceiling can be raised. A safe number would be 10-15%. Above this amount, it
       should probably be treated as a new procurement action.

On January 11, 2005, Denett e-mailed Mayberry stating in the subject line, “Mark [Eckl] is on
travel until Monday. So I wont [sic] be talking to him until Tuesday because of the federal
holiday.”

Both Mayberry and Denett admitted to OIG investigators that Denett subsequently asked
Mayberry to draft the justification needed to increase the funding for Mayberry’s contract. The
justification proposed a 14.8 percent increase (550 consulting hours totaling $66,575). Agent’s
Note: This percentage increase was just under the upper limit of the “safe number” range of 10
to 15 percent, which Eckl noted should not be surpassed in order to avoid “a new procurement
action.”

On January 25, 2005, Denett e-mailed the justification drafted by Mayberry to Eckl requesting an
increase in FBS’ contract funding for an additional 550 consulting hours.

On February 22, 2005, Eckl approved Modification No. 4 to the FBS contract, which increased
the funding of the contract by $66,575. Within one week, Dial began working for FBS and FBS
started billing MMS for work Dial performed on March 1, 2005.

Mayberry told investigators he was the sole employee of FBS, whereas Dial performed work for
FBS under a subcontract. Mayberry stated that he and Dial both performed approximately 100
hours per month each under the contract, or approximately 22 to 23 hours per week.

Mayberry told investigators that he did not approach Dial about performing work for FBS until
sometime after Dial retired from MMS. He said he called Dial to inquire about his interest and
Dial did not readily accept because Dial had interviewed with other companies and had other job
opportunities. However, according to Mayberry, he was finally able to convince Dial to work for
FBS several months after Dial retired from MMS.

Regarding FBS’ subcontract with Dial, Mayberry stated that he had informed Denett that FBS
would need to hire another person in order to keep up with the demands of the contract.
Mayberry stated that he was not certain whether he told Denett this prior to or after Dial retiring
from MMS in September 2004. According to Mayberry, after Dial retired, Dial appeared to be a
perfect choice for filling a role with FBS because of his strategic planning experience and the
fact that he was located in Denver. Accordingly, after Dial retired, Mayberry contacted him to
ask if he was willing to work for FBS and Dial eventually agreed. Mayberry stated that he had
no knowledge of any discussions between Denett and Dial regarding Dial’s eventual
employment with FBS as it related to the modification.
                                                13
Regarding Modification No. 4 to the FBS contract, Denett told investigators that Mayberry had
sent her cost estimates showing that FBS needed more funding in order to keep up with MMS’
requests for services. Denett denied talking to Dial about working for FBS prior to his
retirement from MMS. She further stated that she did not know if Mayberry talked to Dial
about this possibility prior to Dial’s retirement; however, she stated that she knew Mayberry
“would have wanted to recruit Dial after he retired to work for FBS.” Investigators then asked
Denett whether she sought the modification to increase the funding for the FBS contract as a
vehicle for FBS to be able to hire Dial. Denett denied seeking the modification so that FBS
could specifically hire Dial, but rather because she knew FBS was going to need to hire
someone.

During his interview, Eckl explained that he was new in his position at the time he was
approached by Denett about meeting the needs of the agency through an increase in the FBS
contract’s funding. Eckl explained that the original contract was a time and materials contract
that was funded based upon an estimate and that such estimates were often modified as these
types of contracts transpired. As such, he did not feel the request was unusual because the
amount being requested was not out of proportion with the original estimate. Accordingly, he
said he advised Denett that a justification was needed prior to the modification, which she then
provided to him.

On September 29, 2005, 6 months after Dial started working for FBS, Denett sent Dial an e-mail
with a subject line reading: “Happy Birthday.” Dial responded the next day by sending the
following e-mail: “Hi Lucy – Thank you – the years seem to come and go so quickly with life
still being interesting and fun, especially with you and Jimmy – thanks again – Milt.”

                              Award of Second FBS Contract

On October 4, 2005, MMS announced Solicitation No. 01-06-RP-039371, which eventually
became the second FBS contract. Both the Statement of Work drafted by Mayberry, and the Key
Qualifications (evaluation criteria) drafted by Dial, were essentially unchanged from the original
2003 solicitation.

Denett selected herself, Cathy Hamilton, and current MRM Deputy Associate Director Deborah
Gibbs Tschudy to be on the TPEC for this solicitation.

When interviewed, Tschudy said she was a certified COTR and that she completed her last
required COTR training in February 2007. She stated that the COTR training was composed of a
40-hour curriculum that covered the procurement process “from soup to nuts” and, as of 2007,
was required annually in order to maintain COTR certification. According to Tschudy, COTRs
learned about the entire procurement process, including a section on ethics, the solicitation
process, the award process, monitoring process, termination process, and dispute resolution.
Prior to her February 2007 training, Tschudy said she completed the COTR training in 2005 and
her initial COTR training occurred in 2002 or 2003.




                                                14
Tschudy stated that she had also completed the agency-wide annual ethics training and had
received supplemental ethics training due to her SES status. She further stated that post-
employment restrictions were regularly covered in the ethics training she completed.

Tschudy acknowledged that she knew Mayberry very well and started working with him in 1986.
She stated that Mayberry was never her direct-line supervisor; however, she worked on his staff
for many years and Mayberry served as her mentor when she was in MMS’ Mentor Program.
Tschudy stated that Mayberry was a close colleague and she would consider him a friend.

Tschudy stated that she also knew Dial well; however, she noted that she did not start working
with him closely until he became the deputy associate director for MRM in September 2003.
Tschudy said she considered Dial to be a close colleague until his retirement in September 2004.
However, she said she would not consider him to be a close friend.

Tschudy said she spoke with Denett on a daily basis as a result of her normal duties as deputy
associate director. She said she met Denett in the mid-1980s and began working directly for her
in 2001 when she (Tschudy) became the assistant program director for MRM’s Compliance and
Asset Management Division. Tschudy said she considered Denett not only to be a close
colleague but also a good friend.

According to Tschudy, she became the COTR to the FBS contract in December 2005 for the
final month of the original contract prior to its re-competition. She stated that, upon becoming
the COTR in December 2005, her focus was on preparing the solicitation for the second FBS
contract.

Tschudy acknowledged that Denett asked her to serve on the TPEC for the second contract.
Considering her previous statements that Mayberry had served as her mentor and she considered
him a close colleague and friend, along with the fact that she also considered Dial a close
colleague, investigators asked Tschudy how she could consider herself to be an objective
member of a TPEC that was evaluating the proposals of Mayberry and Dial for a competitive
contract. Tschudy acknowledged that, in hindsight, given these circumstances, she should have
recused herself from the TPEC in order to remove any appearance of a conflict of interest.

Tschudy stated that she did not feel any pressure or influence from Denett to favor FBS while
serving on the TPEC for the second FBS contract. She further explained that, absent such
pressure or influence, it was “hard not to favor [FBS]” due to their extensive MMS employment
experience and incumbency in the first contract.

On December 6, 2005, Tschudy sent an e-mail to Dial stating, “Hi Milt – Tom and I are starting
to work on Christmas cards and would like to send you and Sheila one. Would you mind
sending me your address? Thanks.”

The very next day, on December 7, 2005, the TPEC, consisting of Denett, Hamilton, and
Tschudy, completed its evaluation of the proposals presented for Solicitation No. 01-06-RP-
039371. According to the evaluation, “[t]he TPEC’s overall evaluation of FBS is Excellent”; no
other company received an “Excellent” rating. Agent’s Note: In reviewing the evaluations of the

                                                15
other three companies that submitted “Best and Final Offers,” the OIG noted that all three
losing companies were evaluated to have the very same weakness: no direct experience in
minerals revenue management/activities, as required by the Statement of Work.

On December 16, 2005, Dial sent an e-mail to Denett that concluded with the following
sentence: “Well, will sign off for now with a Merry Christmas wish to you and Paul – and a big
thanks to you for keeping life for me much more interesting and fulfilling – Milt.”

On January 17, 2006, Contract No. 01-06-CT-39371 was awarded to FBS for 1 base year in the
amount of $339,200, “Time and Materials, base plus two option years”; the total amount for all 3
years was $986,616, not including travel costs. Deborah Gibbs Tschudy was named as the
COTR for the contract.

Agent’s Note: The value of the second FBS contract award equates to Mayberry and Dial each
earning an annual income of approximately $164,000, excluding travel costs. As noted earlier,
Mayberry stated that he and Dial each worked only 22 to 23 hours per week under the contract.

                                 Potential Ethics Violations

DOI’s Ethics Office is currently housed within the Office of the Solicitor (SOL), and while the
Ethics Office is responsible for the entire department, each bureau within the department has its
own ethics office, including MMS.

Shayla Simmons is an attorney and was the Designated Agency Ethics Official (DAO) for the
DOI Ethics Office from December 2001 through October 2006. Art Gary, also an attorney,
served as the deputy DAO from June 2002 through August 2004. Mary Ann Seidel served as the
ethics specialist for MMS’ Ethics Office for 15 years until she retired from government service
in 2006.

Based upon her 5 years of experience as the DAO for DOI’s Ethics Office, investigators asked
Simmons if she believed DOI SES employees were aware of their obligation to seek expert
ethics guidance and advice from the DOI Ethics Office, or their respective bureaus’ ethics office,
if they were confused or uncertain about a potential ethical situation regarding their federal
employment. In response, Simmons stated, “Yes.” She further elaborated by stating that all SES
employees were required to attend annual ethics training, which covered criminal conflict-of-
interest and post-employment laws. Additionally, Simmons explained that, during this training,
the DOI Ethics Office always stressed to SES employees to “not act alone.” Simmons added that
it was regularly conveyed to SES employees that they would benefit from seeking such advice
inasmuch as if they did so, they would be provided a “safe harbor” from potential prosecution.

Simmons stated that an employee would occasionally come directly to the DOI Ethics Office for
advice; however, she noted that the DOI Ethics Office would typically refer the employee back
to his or her bureau’s ethics office as a starting point for their inquiry. By doing this, Simmons
explained that the DOI Ethics Office tried keeping a process intact that would limit an
employee’s ability to shop for ethics advice between the DOI Ethics Office and the employee’s
bureau ethics office. According to Simmons, the separate bureau ethics offices would refer

                                                16
specific matters to the DOI ethics office when a complex issue was presented that required
comprehensive legal analysis.

Investigators interviewed former deputy DAO to the DOI Ethics Office, Art Gary,
simultaneously with Alton Woods, who had served as the assistant solicitor for the SOL’s
Branch of Acquisition and Intellectual Property since 1998. According to Woods, his primary
responsibility was to advise DOI bureaus in areas of procurement and acquisition-related
matters.

Based upon his experience as the deputy DAO for the DOI Ethics Office, investigators asked
Gary if he believed DOI SES employees were aware of their obligation to seek expert ethics
guidance and advice from the DOI Ethics Office, or their bureau ethics office, if they were
confused or uncertain about a potential ethical situation regarding their federal employment. In
response, Gary stated, “Yes.” He elaborated by stating that all SES employees were required to
attend annual ethics training and, through this training, the DOI ethics office tried “mightily” to
keep a system intact where DOI employees were regularly informed that they needed to seek
guidance from their bureau’s designated ethics officer.

According to Seidel, DOI provides annual mandatory training to all members of the SES. Seidel
further stated that she personally provided much of the ethics training and she stated that post
employment issues were covered. Seidel stated that Dial had a duty to clarify any questions he
had regarding ethics laws. Seidel also noted that claiming ignorance to such laws was not a valid
excuse for violating them. When asked to clarify this statement, Seidel stated that every SES
employee within MMS knew there were many avenues available to them to have questions
answered. Further, Seidel stated that MMS Associate Director of Administration and Budget
Robert Brown, who had been her supervisor and also a member of MMS’ SES, readily made
himself available to all within the organization regarding ethics issues.

                                              Denett

Denett attended annual ethics training for SES employees provided by DOI’s Ethics Office that
was specifically tailored to SES employees and covered conflict-of-interest laws and post-
employment laws in 2002 and 2003. The training she attended in 2002 occurred on September
18, 2002, 3 months prior to her asking Mayberry to draft the Statement of Work for the initial
FBS contract. During her interview, Denett confirmed that she regularly attended annual ethics
training as a DOI SES employee.

Investigators informed Simmons that after Denett’s efforts to find a way to bring Mayberry back
to MMS as a retired annuitant or an 8a contractor had failed, she asked Mayberry to write the
Statement of Work for a competitive contract for consulting services that Mayberry ultimately
bid on and won. When asked if she believed this to be proper, Simmons stated, “No.” She
elaborated by stating, “[Y]ou should not be negotiating for your next job while still in this job
and having it tied to what you are doing.” Simmons stated that she would have advised Denett
that her request to Mayberry to prepare the Statement of Work would violate standards of
conduct that prohibited the favorable treatment of one individual over another by providing them



                                                 17
with an unfair advantage. Simmons indicated that she had no contact with Denett regarding this
matter.

Investigators also informed Simmons that Denett had asked Dial to draft the Key Qualifications
for the solicitation, to serve on the TPEC and later become the COTR for the contract, even
though he was a close friend and associate of Mayberry’s. Investigators then informed Simmons
that, subsequent to Dial drafting the Key Qualifications and Denett forwarding the Key
Qualifications to the contracting officer, Denett acknowledged that she may have sent the Key
Qualifications to Mayberry 2 weeks prior to the solicitation being publicly announced. Simmons
said these actions were absolutely not appropriate.

Simmons also stated that if Denett had asked for advice regarding whether it was appropriate to
serve on the TPEC, Simmons would have advised Denett that it would be improper to do so
because of the appearance of favoritism and a lack of objectivity. Simmons also pointed out that
Denett’s mere presence on the TPEC could give the appearance of influence over the other
TPEC members, whether real or not, inasmuch as the other members were Denett’s subordinates
(Dial and Hamilton both reported directly to Denett).

Investigators provided Gary and Woods with the entire set of circumstances identified in this
investigation that led up to Denett asking Mayberry to draft the Statement of Work for the
contract Mayberry subsequently competed for. In response to this information, Woods said, “Oh
boy, this is ugly.” When asked if he believed this to be proper, Gary indicated that it was not by
stating, “[Y]ou don’t even need an ethics officer for that [answer].”

When investigators asked Gary if Denett sought ethics advice or guidance from him related to
the creation of the FBS contract, he replied that she had not. Woods expressed his surprise
regarding the circumstances surrounding the creation of the initial FBS contract, including the
fact that Denett had asked Mayberry to draft the Statement of Work for his own contract.

Investigators asked Woods if it would be proper for Denett to send Mayberry the Key
Qualifications 2 weeks prior to the solicitation being issued to the public. He responded by
stating the following:

       If you look at the [Federal Acquisition Regulations], it talks about the contracting
       officer’s primary responsibility is to maintain a level playing field. There are
       many [Government Accountability Office] decisions that try to shed some light
       on what that means, but essentially sending the evaluation criteria to one of the
       offerors before he submits a proposal and before the other offerors are involved in
       the process is clearly not a level playing field – the fix is in throughout – this is
       tainted from the beginning – that is totally improper. This guy is walking into the
       room with a clear advantage over the other offerors that the government has given
       him. This stinks, it’s just crazy.

Investigators informed Woods that Denett assigned herself, along with Dial, to serve on the
TPEC that rated the competitors for the contract solicitation, including their close friend and
colleague, Mayberry. In response, Woods stated that if Denett had asked for his advice

                                                18
regarding whether she should serve on the TPEC, he would have advised her, based upon her
close relationship with Mayberry, that it would be improper for her to do so.

Investigators then asked Woods, overall, what advice he would have provided to Denett if she
had come to him regarding the creation of this contract. In response, Woods stated the
following:

       I am a little stunned because we are supposed to, from the government side, to
       maintain the integrity of the procurement process, and what troubles me is that the
       fix appeared to be in. You draft the SOW – wink, wink – we are going to give
       you the contract – that kind of thing. It is not only a violation of the basic premise
       of keeping a level playing field for procurements but it also really means that
       other vendors who may want to bid on a particular contract have no chance – we
       are leading them down the primrose path where there is no realistic chance that
       they are going to be able to, or have a legitimate opportunity to get a particular
       contract.

Robert Brown said he had been MMS’ Associate Director of Administration and Budget since
1995. As the Associate Director for the Administration and Budget division, Brown oversaw
both MMS’ procurement division and ethics office.

Investigators informed Brown of the entire set of circumstances that led to Mayberry’s drafting
of the Statement of Work for his own contract. In response, Brown said, “I would not
recommend that at all.” When asked why he would not recommend Mayberry to draft the
Statement of Work, Brown stated the following:

       Clearly, you don’t want to have even that appearance that there is preference in
       these kinds of things. In this case you got more than an appearance in the sense
       that you get to write the solicitation and then respond to the solicitation you have
       an advantage that is probably untoward.

Brown stated that, from the very beginning, Denett should have informed the contracting officer
that she wanted to bring back a specific person and then listened to the contracting officer’s
advice as to what their legal options to do so would be. Brown explained that at every stage
thereafter, the contracting officer should have been kept informed of all pertinent facts
surrounding the process (i.e. persons involved, their relationships, etc.) so that the contracting
officer would have been capable of assuring the process remained in compliance with the law.
Brown added that, with respect to the FBS contracting process, in addition to the need to engage
the contracting officer, the ethics officer should also have been actively engaged. Specifically,
he stated the following:

       The contracting officer and ethics officer can’t be effective unless you tell them
       the entire situation – you tell them ‘I’m this, I’m that’ and so on – what should I
       do? That’s what they are there for. But if you don’t tell them that, then they
       can’t give you effective advice.



                                                19
Brown further stated that the MMS procurement chief and ethics officer were responsible for
explaining to MMS employees “the four corners, factually, without any reservations about what
it is that you want to do, and they will tell you whether you can or cannot do it.” He stated that,
regarding ethics laws, if an MMS employee described all of the facts to the ethics officer and the
ethics officer told the employee that it was legal to take a specific action and it turned out to be
illegal, the employee would be protected from prosecution. Therefore, Brown stated that he
always told an employee to go to the ethics office if they had a question about what was legal or
not.

Regarding Denett’s request to have Mayberry draft the justification necessary to seek a
modification that would increase the funding for Mayberry’s FBS contract, which resulted in
Dial immediately joining FBS once the modification was signed, investigators asked Brown if he
believed this was proper. Brown responded by stating that it “depends on the environment you
are in.” He stated that if the modification represented an increase in funding because there was a
highly technical change in the contract, then it would make sense to request the contractor to
draft an explanation that supported the need for increased funding. However, with respect to the
modification for the FBS contract where more hours were simply being added to the contract,
Brown stated, “I would probably have someone on my staff do that – that’s what I would do.”

Agent’s Note: According to Section 9.505-2(a)(1) of the Federal Acquisition Regulations (FAR),
“if a contractor prepares and furnishes complete specifications covering non-developmental
items [e.g. drafts the Statement of Work], to be used in a competitive acquisition, that contractor
shall not be allowed to furnish these items, either as a prime contractor or as a subcontractor,
for a reasonable period of time including, at least, the duration of the initial production
contract.”

                                            Mayberry

Mayberry attended annual ethics training provided by MMS’ Ethics Office in 2000, 2001, and
2002, including training on November 25, 2002, approximately 2 weeks prior to drafting the
Statement of Work for his own contract. All MMS employees were required to attend annual
ethics training which covered a full range of ethical issues, including conflict of interest laws and
post-employment laws. During his interview, Mayberry confirmed that he received annual ethics
training.

Neither Simmons nor Seidel recalled being consulted by Mayberry for ethics guidance prior to or
after Mayberry’s retirement in January 2003. Simmons stated that she had checked her work
logs and did not find Mayberry’s name in any of her logbooks.

Investigators asked Simmons what she would have advised Mayberry to do if he had asked her
whether he could draft the Statement of Work. Simmons responded that she would have told
Mayberry he could not legally do so. She explained that Mayberry’s drafting of the Statement of
Work fell within the restrictions outlined in 18 USC §208 because he had a personal financial
interest in creating a contract for himself. She summarized her thoughts by saying, “[Y]ou
shouldn’t be sitting in your federal chair negotiating your own contract to come back.”



                                                 20
Investigators asked Simmons, given the executive level of Mayberry and his years of experience
working for the federal government, whether she believed he possessed enough training to know
when he needed to seek clarification if confused about ethics laws. She responded by saying,
“[T]he whole way the ethics rules work is that the onus is on the employee to understand what
the rules are and to seek advice if they don’t understand what the rules are.” Simmons noted that
this was especially true for Mayberry, in light of his executive status and his length of federal
service.

When investigators asked Gary if Mayberry ever sought ethics advice or guidance from him
prior to, or after, Mayberry’s retirement in January 2003, Gary responded by stating that
Mayberry’s name “does not ring any bells whatsoever.” Gary stated that he had checked his
work logs and did not find Mayberry’s name in any of his log books.

Investigators asked Gary what he would have advised Mayberry to do if Mayberry asked for
advice regarding whether he (Mayberry) could draft the Statement of Work. Gary responded by
saying, “[T]hat would be real easy – it would have been no.” He elaborated by stating that
Mayberry’s drafting of the Statement of Work was probably both a FAR violation and a
violation of ethic laws.

According to Gary, there were many authorities in place that provided flexibility in re-hiring
employees with institutional knowledge back to federal service, yet he stated that this situation
appeared to be one where there was a “manipulation of the contracting process to avoid
someone’s personal preference not to come back as a re-employed annuitant, or not to be re-
hired, or whatever.”

Investigators also asked Brown if he believed Mayberry should have known better. Brown
responded by stating that Mayberry was a long-time federal employee at a high-level position
who attended trainings “and all those kinds of things – yeah, [he] should have known better.”

                                               Dial

Dial attended annual ethics training from MMS’ Ethics Office in 2000, 2001, 2002, and 2003,
including training provided by the DOI Ethics Office on May 8, 2003, that was specifically
tailored toward SES employees and covered conflict of interest laws and post-employment laws.
During his interview, Dial confirmed that he regularly attended annual ethics training while
employed with MMS; however, he also stated that he did not recall having any discussions with
any ethics officials within DOI or MMS relative to post-employment laws that would have
applied to his situation.

Dial said he served as the COTR for the original FBS contract for 1.5 years until he retired from
MMS in September 2004. Dial started working for FBS on the very same contract 6 months
after he retired.

Former MMS Ethics Specialist Seidel stated that to the best of her knowledge, she could not
recall Dial ever coming to her for post-retirement ethics guidance.



                                                21
Seidel stated that regarding retirement and technical questions, the MMS Ethics Office was able
to provide an overall view of what the regulatory requirements were; however, when it came to
specifics, she noted that the MMS Ethics Office would engage the support of the DOI Ethics
Office within the SOL. Seidel stated that she would have remembered going to the DOI Ethics
Office for issues brought to her by Dial and that circumstance never occurred. In addition,
Seidel stated that when an employee came to her office, she would routinely have them write
down what their specific issues with post-employment were. She reiterated that she did not
recall Dial ever doing so.

After being provided a copy of the January 21, 2004 e-mail Dial forwarded to Mayberry that
contained “guidance on Post Employment Restrictions for Senior Executives developed by the
Department’s Ethics Office,” Seidel stated that based on the information provided to her, it was
apparent that Dial read the memo regarding post-employment restrictions, signed it, and then
ignored it.

Investigators also informed Simmons that Dial served as the COTR for the FBS contract for 1.5
years until he retired from MMS in September 2004 and began working for FBS on the very
same contract. In response to these facts, Simmons stated that Dial’s representation of FBS
probably violated 18 USC §207(a) (1), (a)(2), and (c). When asked if Dial ever consulted her
about post-employment issues, Simmons stated that she did not recall Dial ever asking her for
any ethics advice.

Investigators asked Simmons if she believed Dial had an obligation to seek clarification if he was
confused about how 18 USC §207 might have applied to him. Simmons stated that she
personally conducted annual ethics training for DOI SES employees and she regularly urged SES
employees to seek such clarification.

Simmons pointed out that given the level of Dial’s SES status and years of experience working
for the federal government, she believed he possessed enough training to know when and how to
seek clarification if confused about ethics laws. When investigators informed Simmons that Dial
claimed to be confused about 18 USC §207, she replied, “[I]t strikes me that if he is already
giving you the answer that he was confused, then it is sort of suggesting that he didn’t want to be
not confused.”

Investigators also informed SOL attorneys Gary and Woods that, after Dial served as the COTR
on the FBS contract for 1.5 years until he retired from MMS in September 2004, he began
working for FBS on the very same contract. In response, Gary stated that if Dial represented
Mayberry’s company to MMS under the contract, then that is “a 207 [18 USC §207] issue.”

Investigators then asked Gary if he believed Dial had an obligation to seek clarification if he was
confused about how 18 USC §207 might have applied to him. Gary stated that the DOI Ethics
Office regularly urged SES employees to seek such clarification in their annual ethics training.
When told that Dial claimed that he was confused about 18 USC §207 and then never sought
further clarification, Gary stated, “That’s crazy.”




                                                22
Gary explained that the DOI Ethics Office was very conversant with 18 USC §207 and, when
they were conducting annual ethics training for SES employees, they always made a point of
talking about post-employment laws/restrictions. He stated that the DOI Ethics Office informed
the SES employees to “make sure you come and get ethics advice when you are contemplating
leaving the government, especially if you are going to do something related to your job.” Gary
further stated that the SES employees were also told to contact the DOI Ethics Office after they
retired because the office was responsible for advising former employees about these laws.

Investigators then asked Gary, based upon those facts, if he considered Dial’s actions to be
“willful ignorance.” Gary responded, “I sure would – if I had to opine about it.” He explained,
“It’s hard for me to imagine, like Alton [Woods], that sitting down and doing what they were
doing didn’t trigger some kind of – wait a minute, is this really on the up an up? Should we be
doing this? Should we be knitting together such a cozy relationship?”

                           Termination of Second FBS Contract

In a follow-up interview with MMS Chief Procurement Officer Eckl on June 25, 2007,
investigators informed Eckl of all the circumstances surrounding the creation and modification of
the initial FBS contract, revealed during the OIG investigation. During this interview,
investigators also told Eckl that Dial began working for FBS in March 2005 and that the
Statement of Work and Key Qualifications used in the second solicitation announced in October
2005 had not essentially changed since the original solicitation in 2003. Investigators informed
Eckl that this situation resulted in the two persons responsible for drafting the Statement of Work
and the Key Qualifications (Mayberry and Dial, respectively), which were utilized in the October
2005 solicitation, were now bidding on a competitive solicitation that they personally drafted.
Given these facts, investigators then asked Eckl whether he thought the 2005 solicitation was a
“fair” procurement process. Eckl responded by saying, “[O]bviously, knowing what I know
now, I’ve got some major, major concerns with that.” Eckl stated that he believed the
procurement division did not know about these facts at the time the second contract was awarded
to FBS.

Investigators then asked Eckl what action, if any, he planned on taking with respect to the current
FBS contract, based upon the facts provided to him during his interview. Eckl replied, “I think
in light of everything we know, we need to terminate it.” Eckl further said he felt comfortable
that this was the only correct course of action for the procurement division. He said, “I take this
stuff very, very seriously, and I mentioned to you before that it bothers me to even be remotely
associated with it, and we will do everything we can to make sure it doesn’t happen again.”

On June 29, 2007, investigators interviewed MMS Acting Director Walter Cruickshank and
informed him of the circumstances surrounding the FBS contracts. Cruickshank stated that
Mayberry should have been “walled off” from the preparation of the solicitation once Denett had
decided to create the contract. Cruickshank also stated that, given the timing of everything,
Denett should not have spoken to Dial about the possibility of him working for FBS in the future
prior to asking Dial to draft the Key Qualifications for the contract. Based upon this fact,
Cruickshank stated that he believed Dial’s drafting of the Key Qualifications was a “big


                                                23
problem” inasmuch as it would appear that he was considering his own future employment when
doing so.

When specifically asked his opinion about Denett’s possible forwarding of the Key
Qualifications to Mayberry 2 weeks prior to the public announcement of the solicitation,
Cruickshank said, “That’s beyond the pale, I mean, you don’t give a competitor insider
information before the competition.”

Cruickshank then stated that he felt it was improper for Denett to assign herself as a member of
the TPEC because “she had clearly indicated through prior communications that she has some
potential bias in selection” and that he didn’t “know of too many occasions of an Associate
Director sitting on a TPEC.” Regarding Dial’s assignment to the TPEC by Denett, Cruickshank
stated that Dial would normally be an appropriate choice for such an assignment; however, given
the fact that Dial and Denett may have discussed the possibility of Dial working for FBS some
day in the future, it was not appropriate for Dial to serve on the TPEC.

Regarding the modification Denett sought to increase the funding of the FBS contract,
Cruickshank said, “It seems clear what the purpose was for doing all that was to create the
conditions for Milt [Dial] to join that contract and get paid and it looks like they’re saying ‘how
can we do this the way that’s the easiest to get it done?’” Cruickshank added, “It is not
something I would do.”

Regarding Mayberry’s drafting of the justification to increase the funding for his own contract,
Cruickshank stated that “the justification should have come from within MRM.” With respect to
the fact that Dial started working for FBS 6 days after the modification was signed, Cruickshank
said, “That gives the appearance that he had been thinking about it before he left MMS.”

Investigators then asked Cruickshank whether he believed it was appropriate for Denett to assign
herself to the TPEC for the second FBS contract solicitation. He replied, “Given all this
background, it is clear there was an interest in who the winner would be.” Cruickshank stated
that he knew post-employment laws existed, yet he was unfamiliar with the details of such laws.
He did acknowledge that post-employment laws were covered in the annual ethics training
provided to all DOI SES employees.

Investigators then apprised Cruickshank of Eckl’s statement that he planned on terminating the
current FBS contract after the investigators presented him with the above-noted circumstances
surrounding the contract. In response, Cruickshank stated that he had “no problem with [Eckl]
terminating the contract.”

On July 26, 2007, the MMS Procurement Office terminated the second FBS contract.

                        Potential Losses of Competing Companies

Between July 17, 2007, and August 24, 2007, investigators contacted the six separate companies
that submitted losing Best and Final Offers (proposals) to the MMS Request for Proposals (RFP)
that resulted in both FBS contracts awarded in 2003 and 2005. Each company was asked to

                                                 24
provide an estimate of its costs related to the preparation and submission of proposals to MMS,
along with a statement as to the size of the companies at the time they submitted their proposals.

The following is a summary of the response received from the six separate companies:

                                       2003 MMS RFP

1)     Sidebar Consulting
       Cost for Proposal:             “In excess of” $20,000
       Size of Company in 2003:       Approximate revenue of $80,000


2)     High Performance Technologies, Inc.
       Cost for Proposal:        Approximately $10,000
       Size of Company in 2003:  Approximate revenue of $35 million

3)     Jupiter Technical, Security, and Management Solutions
       Cost for Proposal:             Approximately $20,000
       Size of Company in 2003:       Unknown

                                       2005 MMS RFP

1)     Sebenza, LLC
       Cost for Proposal:             “A minimum of” $20,000
       Size of Company in 2005:       6 – 8 employees

2)     Sterling Heritage Consulting
       Cost for Proposal:           $14,988
       Size of Company in 2005:     Annual revenue of $1,033,447

3)     Nwabukwu, Limerick & Associates, CPA’s, LLC
       Cost for Proposal:       Approximately $7,000
       Size of Company in 2005: Annual revenues under $6.5 million

In sum, the total lost cost for all six proposals was in excess of $91,988. Agent’s Note: Several
letters proffered by the companies also described significant intangible costs associated with the
preparation of their proposals, such as lost opportunity costs.

On October 5, 2007, investigators interviewed Dial under a proffer agreement by the OIG and
the Department of Justice Dial failed to offer any substantive information during this proffer that
was not already covered above.




                                                25
